         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Department of Energy's Fiscal Year
2013 Consolidated Financial
Statements




OAS-FS-14-03                       December 2013
                                  Department of Energy
                                    Washington, DC 20585
                                      December 12, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on the "Department of Energy's Fiscal
                      Year 2013 Consolidated Financial Statements"

Pursuant to requirements established by the Government Management Reform Act of 1994, the
Office of Inspector General engaged the independent public accounting firm of KPMG, LLP
(KPMG) to perform the audit of the Department of Energy's Fiscal Year 2013 Consolidated
Financial Statements.

KPMG audited the consolidated financial statements of the Department as of September 30,
2013 and 2012, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and combined statement of budgetary resources for the years then ended.
KPMG concluded that these consolidated financial statements are presented fairly, in all material
respects, in conformity with United States generally accepted accounting principles and has
issued an unmodified opinion based on its audits and the reports of other auditors for the years
ended September 30, 2013 and 2012.

As part of this review, auditors also considered the Department's internal controls over financial
reporting and tested for compliance with certain provisions of laws, regulations, contracts and
grant agreements that could have a direct and material effect on the consolidated financial
statements. The audit revealed certain deficiencies in internal control related to unclassified
network and information systems security that were considered to be a significant deficiency.
The following significant deficiency in the Department's system of internal controls is not
considered a material weakness:

   •   Unclassified Network and Information Systems Security: Network vulnerabilities and
       weaknesses in access and other security controls in the Department's unclassified
       computer information systems continue to exist. The Department has taken steps to
       enhance its unclassified cyber security program, including increasing the high level
       visibility of cyber related issues, consolidating incident response services and
       capabilities, and working with programs and sites toward the effective implementation of
       a risk management approach.

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under applicable audit standards and requirements.
                                               2


KPMG is responsible for the attached auditor's report and the opinions and conclusions
expressed therein. The Office of Inspector General is responsible for technical and
administrative oversight regarding KPMG's performance under the terms of the contract. Our
review was not intended to enable us to express, and accordingly we do not express, an opinion
on the Department's financial statements, management's assertions about the effectiveness of its
internal control over financial reporting or the Department's compliance with laws and
regulations. Our monitoring review disclosed no instances in which KPMG did not comply with
applicable auditing standards.

We appreciated the cooperation of Department elements during the review.

Attachment

cc:   Deputy Secretary of Energy
      Acting Under Secretary for Nuclear Security
      Deputy Under Secretary for Management and Performance
      Deputy Under Secretary for Science and Energy
      Chief of Staff
      Deputy Chief Financial Officer



                                                           Audit Report: OAS-FS-14-03



http://www.energy.gov//cfo/reports/agency-financial-reports
                                                                                           Attachment


                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


The Inspector General, United States Department of Energy and
The Secretary, United States Department of Energy:

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the United States Department of
Energy (Department), which comprise the consolidated balance sheets as of September 30, 2013 and 2012,
and the related consolidated statements of net cost, changes in net position, and custodial activity, and
combined statements of budgetary resources for the years then ended, and the related notes to the
consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                                           Attachment



Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the United States Department of Energy as of September 30, 2013 and
2012, and its net costs, changes in net position, budgetary resources, and custodial activity for the years
then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matters

As discussed in Note 7 to the consolidated financial statements, the Department has total direct loans and
loan guarantees, net, of $15 billion and $13 billion as of September 30, 2013 and 2012, respectively, which
are issued under the Federal Credit Reform Act of 1990. Subsidy costs of the direct loans and loan
guarantees are intended to estimate the long-term cost to the U.S. Government of its loan program and
include interest rate differentials, delinquencies, defaults, fees, and other cash flow items. A subsidy re-
estimate is performed annually at September 30. Any adjustment resulting from the re-estimate is
recognized as subsidy expense.

As discussed in Note 15 to the consolidated financial statements, the cost estimates supporting the
Department’s environmental cleanup and disposal liabilities of $280 billion and $268 billion as of
September 30, 2013 and 2012, respectively, are based upon assumptions regarding funding and other
future actions and decisions, many of which are beyond the Department’s control.

As discussed in Note 18 to the consolidated financial statements, the Department is involved as a defendant
in several matters of litigation relating to its inability to accept commercial spent nuclear fuel by January
31, 1998, the date specified in the Nuclear Waste Policy Act of 1982, as amended. The Department has
recorded liabilities for likely damages of $21 billion and $20 billion as of September 30, 2013 and 2012,
respectively.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic consolidated financial statements. Such
information, although not a part of the basic consolidated financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the basic consolidated financial statements. We do
not express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Supplementary and Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The consolidating information in the Consolidating Schedules section of the
Department’s 2013 Agency Financial Report is presented for purposes of additional analysis and is not a
required part of the basic consolidated financial statements.
                                                                                               Attachment



The consolidating information is the responsibility of management and was derived from and relates
directly to the underlying accounting and other records used to prepare the basic consolidated financial
statements. Such information has been subjected to the auditing procedures applied in the audit of the basic
consolidated financial statements and certain additional procedures, including comparing and reconciling
such information directly to the underlying accounting and other records used to prepare the basic
consolidated financial statements or to the basic consolidated financial statements themselves, and other
additional procedures in accordance with auditing standards generally accepted in the United States of
America. In our opinion, the consolidating information is fairly stated in all material respects in relation to
the basic consolidated financial statements as a whole.

The information in the Message from the Secretary, Message from the Chief Financial Officer, and Other
Information section of the Department’s 2013 Agency Financial Report has not been subjected to the
auditing procedures applied in the audits of the basic consolidated financial statements, and accordingly,
we do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards
Internal Control Over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered the
Department’s internal control over financial reporting (internal control) to determine the audit procedures
that are appropriate in the circumstances for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control. Accordingly, we do not express an opinion on the effectiveness of the
Department’s internal control. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control related to unclassified network and information systems security, described
below and in more detail in Exhibit I that we consider to be a significant deficiency.

        •   Unclassified network and information systems security – We noted network vulnerabilities and
            weaknesses in access and other security controls in the Department’s unclassified computer
            information systems. The identified weaknesses and vulnerabilities increase the risk that
            malicious destruction or alteration of data or unauthorized processing could occur. The
            Department should fully implement policies and procedures to improve its network and
            information systems security.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the Department’s consolidated financial
statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
                                                                                          Attachment



direct and material effect on the determination of financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion. The results of our tests of compliance disclosed no instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards or OMB Bulletin
No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the Department’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

Department’s Response to Findings

The Department’s response to the finding identified in our audit is presented in Exhibit I. The
Department’s response was not subjected to the auditing procedures applied in the audit of the consolidated
financial statements and, accordingly, we express no opinion on the response.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the Department’s internal
control or compliance. Accordingly, this communication is not suitable for any other purpose.




December 10, 2013
                                                                                           Attachment



Independent Auditors’ Report
Exhibit I – Significant Deficiency


                       Unclassified Network and Information Systems Security
                      (Finding numbers reported in separate management letter)


The United States Department of Energy (the Department or DOE) uses a series of interconnected
unclassified networks and information systems. Federal and Departmental directives require the
establishment and maintenance of security over unclassified information systems, including financial
management systems. Past audits identified significant weaknesses in selected systems and devices
attached to the computer networks at some Department sites. The Department has implemented corrective
actions to address many of the identified weaknesses at the sites whose security controls we, and the
Department’s Office of Health, Safety and Security, reviewed in prior years. However, at the time of our
testing, corrective actions had not been fully completed. The frequency of network security weaknesses
reported by KPMG has decreased when compared to the prior year weaknesses, but the number of
weaknesses related to access control deficiencies in general information technology controls has increased
since fiscal year (FY) 2012. The severity of these weaknesses remains consistent with prior year
weaknesses. The Department recognizes the need to enhance its unclassified cybersecurity program and
elevated unclassified cybersecurity to a material weakness in its Federal Managers' Financial Integrity Act
assurance statement for FY 2013. Although the material weakness is not specific to financial systems,
improvements are still needed in the areas of system and application access and related access privileges,
password management, restriction of network services, configuration and vulnerability management, and
system integrity.

Our FY 2013 audit disclosed information system security deficiencies similar in type and risk level to our
findings in prior years. We identified similar weaknesses at sites where we had not reviewed security
controls in the prior year. Specifically, we noted significant weaknesses and associated vulnerabilities for
network servers and devices, desktop systems and business applications. We identified multiple instances
of easily guessed login credentials or unrestricted access controls on network systems that could permit
unauthorized access to those systems and their data. We also identified weak remote access controls in
which multi-factor authentication had not been implemented for privileged users and access to sensitive
information, such as personally identifiable information. In the area of account management and
monitoring controls, when compared to weaknesses identified in our prior year’s audit, we noted an
increase in the frequency of weaknesses related to review, approval, provisioning and termination of
administrative and user accounts that may increase the risk of malicious or unauthorized access to systems
and data.

We identified deficiencies in configuration and vulnerability management on network server and desktop
systems. Specifically, configuration and vulnerability management processes, including automated security
update and patch management applications and other technical controls, were not fully implemented to
identify, monitor and remediate system vulnerabilities. We found numerous instances in which critical
security patches had not been applied in a timely manner to correct known vulnerabilities more than 30
days after the patches became available. We identified multiple server systems running operating system
versions that were no longer supported by the vendor. We also noted that one site had not developed
minimum security configuration policies and requirements for all systems. The affected systems included
servers providing core network services and workstations used by financial application users and system
administrators with privileged levels of access to financial applications and other network systems.
                                                                                             Attachment




We also identified numerous weaknesses related to web application integrity as a result of design flaws in
those applications. We identified web applications supporting financial processes that accepted insecure
user authentication information or did not properly validate the form or content of input data against an
application’s database, which could result in unauthorized access to application functionality, sensitive data
stored in the applications, and other network systems and applications.

While many of these weaknesses were corrected immediately after we identified and reported them to site
management, deficiencies in cybersecurity processes and procedures have continued from prior years. We
noted that multiple sites were continuing to develop and implement site-level Implementation Plans in
accordance with the Department’s Risk Management Approach to address cybersecurity weaknesses.
However, these risk management enhancements were incomplete at the time of our testing. We also found
that risk-based decisions, including evaluation and acceptance of risk, were not adequately documented at
several sites to address residual risk, business justification, and mitigations.

The Department’s Office of Inspector General (OIG) reported on these deficiencies in its evaluation report
on The Department’s Unclassified Cyber Security Program - 2013, dated October 2013. The OIG noted
that the identified weaknesses occurred, in part, because Departmental entities had not ensured that policies
and procedures were fully developed and implemented to meet all necessary cybersecurity requirements.
The OIG reported that the Department continued to operate a less than fully effective performance
monitoring and risk management program. The OIG noted that, contrary to Federal requirements, the
Department’s Plans of Action and Milestones were not always effectively used as a monitoring tool to
report, prioritize and track cybersecurity weaknesses. The OIG also reported deficiencies in vulnerability
and patch management at numerous sites in which vulnerable operating systems and applications were
missing security updates and /or patches. The OIG further reported that weaknesses of this type directly
contributed to the recent security breach of a Headquarters system containing significant amounts of
personally identifiable information.

The identified vulnerabilities and control weaknesses in unclassified network and information systems
increase the possibility that malicious destruction or alteration of data or unauthorized processing could
occur. Because of our concerns, we performed supplemental procedures and identified compensating
controls that mitigate the potential effect of these security weaknesses on the integrity, confidentiality and
availability of data in the Department’s financial applications.

During FY 2013, the Department had taken steps to enhance its unclassified cybersecurity program. To
increase high-level visibility of cyber-related issues, a senior leadership council chaired by the Secretary of
Energy was recently established. Additionally, the Department continues to consolidate incident response
services and capabilities under the Joint Cybersecurity Coordination Center (JC3) and work with programs
and sites towards effective implementation of a risk management approach.

Recommendation:

While progress has been made, continued efforts are needed to effectively manage the evolving nature of
cybersecurity threats, including strengthening the management review process and monitoring of field sites
to improve cybersecurity program performance; fully implementing revised and ongoing risk management
processes; and expanding the use of automated tools in the resolution of the vulnerabilities and control
weaknesses described above to properly configure, implement and update systems throughout the lifetime
of those systems.

Therefore, we recommend that the Under Secretary for Nuclear Security, Under Secretary for Science and
Energy, and Under Secretary for Management and Performance, in coordination with the Department and
National Nuclear Security Administration Chief Information Officers, fully implement policies and
                                                                                            Attachment




procedures to meet the Federal cybersecurity standards, that networks and information systems are
adequately protected against unauthorized access, and that an adequate performance monitoring program is
implemented, such as the use of periodic evaluations by Headquarters management, to improve the
effectiveness of sites’ cybersecurity program implementation. Detailed recommendations to address the
issues discussed above have been separately reported to the cognizant management officials.

Management’s Response:

The Department of Energy’s Chief Information Officer (CIO) appreciates the opportunity to comment and
the OIG’s recognition of the Department’s continued progress in addressing weaknesses and enhancing its
unclassified cybersecurity program.

The Department continues its commitment to the protection of its information and information systems
through a strong comprehensive Cybersecurity Program. Under the newly established Cyber Council
chaired by Secretary Moniz and Deputy Secretary Poneman, activities are continuing to progress in
effective risk-managed cybersecurity through maturing the Departmental Risk Management Framework
(RMF). The information in this report will be brought forward to the Cyber Council for action and
determination for path forward. In addition, the Under Secretaries, the Department CIO, NNSA CIO, and
Program Support Offices will take appropriate follow-up action on specific findings, as well as to continue
to work in the most effective way to improve the Department’s cybersecurity posture.

The following efforts continue momentum in support of improving the Department’s risk-managed
cybersecurity posture through Federal mandated requirements.

    •   Cybersecurity Cross-Agency Priority (CAP) Goals. The Department is focusing on improving
        the cybersecurity posture through the use of three Cross Agency Priorities (CAP) goal programs:
        Trusted Internet Connection (TIC), Personal Identification Verification (PIV) Card Usage and
        Continuous Monitoring (CM). Scorecards are kept for each departmental element as well as the
        Department as a whole. The Department is actively participating in the Department of Homeland
        Security (DHS) Continuous Diagnostics and Mitigation (CDM) Program and plans to expand the
        program during FY 2014 within DOE.

    •   Information Sharing and Safeguarding (IS&S). In a memorandum dated August 23, 2013,
        Secretary Moniz designated the Chief Information Officer (CIO) as the Department of Energy
        (DOE) Senior Agency Official (SAO) for Information Sharing and Safeguarding, thereby
        implementing Executive Order (E.O.) 13587, “Structural Reforms to Improve the Security of
        Classified Networks and the Responsible Sharing and Safeguarding of Classified Information.”
        The Department has established an Information Sharing and Safeguarding Governance Board,
        chaired by the SAO, as well as a Secretary-designated Senior Insider Threat Officer who will lead
        efforts in new policy and programs.

    •   Joint Cybersecurity Coordination Center (JC3). Deputy Secretary Poneman signed the
        Memorandum for Heads of Departmental Elements on July 31, 2013, Subject: Cybersecurity
        Incident Management Improvements and the Joint Cybersecurity Coordination Center (JC3). This
        memorandum directs the consolidation of enterprise cybersecurity monitoring, information
        sharing, reporting, and federal enterprise incident response activities to the JC3 under the Office of
        the CIO. This will enhance the Department’s ability to better manage future cyber security events,
        in a much more comprehensive manner.
                                                                                  Attachment




In FY2014 the JC3 will expand enterprise incident response and management through the addition
of personnel, tools, and the formalization of processes and metrics. Additionally, the program will
increase enterprise monitoring, information collection, and advanced analytics as well as offering
additional cybersecurity tools and services to customers Department wide. Based on
recommendations from the Office of the CIO, the DOE Cyber Council is considering expansion of
JC3 services like: the Cyber Federated Model (CFM) to increase cybersecurity information
sharing; the Cooperative Protection Program (CPP) to increase situational awareness; and the DOE
Enhanced Cybersecurity Services (DEX) to protect more sites with Intelligence Community
informed filters and signatures.
                                                                  IG Report No. OAS-FS-14-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
